No. 20-1604
IN THE

Supreme Court of the United States
BIOGEN MA INC.,
Petitioner,
v.
EMD SERONO, INC., PFIZER INC.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 19th day of July, 2021, I caused three copies of the Brief in Opposition to be
served by third-party commercial carrier on the counsel identified below, and caused an
electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.

Counsel for Petitioner:
Jeffrey A. Lamken
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
(202) 556-2010
jlamken@mololamken.com

Nicholas Groombridge
Eric Alan Stone
Peter Sandel
Jenny C. Wu
Josephine Young
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019
(212) 373-3000
ngroombridge@paulweiss.com
estone@paulweiss.com
psandel@paulweiss.com
jcwu@paulweiss.com
jyoung@paulweiss.com

Mark A. Perry

2

